                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                             Three Lafayette Centre
                                  1155 21st Street, NW, Washington, DC 20581
                                          Telephone: (202) 418-5110
                                           Facsimile: (202) 418-5522



   Office of the
Inspector General

    MEMORANDUM


     TO:             Gary Gensler
                     Chairman

     FROM:           A. Roy Lavik
                     Inspector General

     DATE:           November 10, 2010

     SUBJECT:        Inspector General’s Assessment of The Most Serious Management
                     Challenges Facing the Commodity Futures Trading Commission (CFTC)

     Introduction

    The Reports Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
    performance information in a more meaningful and useful format for Congress, the President,
    and the public, through publication of the Performance and Accountability Report (PAR). The
    RCA requires the Inspector General to summarize the “most serious” management and
    performance challenges facing the Agency and to assess the Agency’s progress in addressing
    those challenges, all for inclusion in the PAR. This memorandum fulfills our duties under the
    RCA.

    In order to identify and describe the most serious management challenges, as well as the
    Agency’s progress in addressing them, we have relied on data contained in the CFTC financial
    statement audit and PAR, as well as our knowledge of industry trends and CFTC operations.
    Since Congress left the determination and threshold of what constitutes a most serious challenge
    to the discretion of the Inspector General, we applied the following definition in preparing this
    statement:

    Serious management challenges are mission critical areas or programs that have the potential for
    a perennial weakness or vulnerability that, without substantial management attention, would
    seriously impact Agency operations or strategic goals.
This memorandum summarizes the results of the CFTC’s current financial statement audit,
describes the Agency’s progress on last year’s management challenges, and finally discusses the
most serious management challenges that we have identified:

   •   Implementation of the Dodd-Frank Act

   •   Human Resource Expansion and Management


CFTC Financial Statement Audit Results

In accordance with the Accountability of Tax Dollars Act, CFTC, along with numerous other
federal entities, is required to submit to an annual independent financial statement audit by the
Inspector General, or by an independent external auditor as determined by the Inspector General.
The results of the fiscal year 2010 financial statement audit are discussed in the PAR, and the
financial statement audit resulted in an unqualified audit opinion.

CFTC’s Progress on Last Year’s Challenges

Last year, we identified three most serious management challenges:

   •   Harmonization of CFTC and Securities and Exchange Commission (SEC)
            Overlapping Regulations;

   •   CFTC’s Regulatory Model for the Swaps Derivatives Market; and,

   •   CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading
       Markets.


CFTC made progress on all three challenges.

Harmonization of CFTC and Securities and Exchange Commission (SEC) Overlapping
Regulations. On June 17, 2009, the White House released a White Paper on Financial
Regulatory Reform calling on the SEC and CFTC to ‘make recommendations to Congress for
changes to statutes and regulations that would harmonize regulation of futures and securities.’
Specifically, the White House recommended ‘that the CFTC and SEC complete a report to
Congress by September 30, 2009, that identifies all existing conflicts in statutes and regulations
with respect to similar types of financial instruments and either explains why those differences
are essential to achieve underlying policy objectives with respect to investor protection, market
integrity, and price transparency or makes recommendations for changes to statutes and
regulations that would eliminate the differences.

The CFTC jointly with SEC issued a substantial Harmonization Report in October 2009,
identifying areas where the respective regulatory regimes for futures and securities could be
better aligned to streamline the regulation of novel derivative products and to avoid duplicative


                                                 2
regulation. In November 2009, CFTC and SEC issued two joint orders to clarify their respective
jurisdiction with respect to certain security index products and to allow additional products to
underlie security futures products. Most of the statutory recommendations set forth in the
October 2009 Report were included in the Dodd-Frank Act, and the agencies are now proceeding
to implement those new authorities.

CFTC’s Regulatory Model for the Swaps Derivatives Market. In 2009, we believed that both the
intricacies of any forthcoming derivatives regulation and the acquisition of human capital to
carry out the regulatory tasks would challenge the CFTC in the coming year. The Commission
employed 605 FTE in FY 2010, up from 498 FTE in FY 2009. The Commission requested in the
President’s FY 2011 Budget, 745 FTE for pre-Dodd-Frank Authorities and 119 FTE to
implement Dodd-Frank authorities, for a total of 864 FTE. The Commission states in order to be
as timely and substantively prepared as possible to meet the needs of the Human Capital
requirements of the Dodd-Frank Act, it has:

   •   Engaged all offices to identify and implement business process changes that will shorten
       the time to hire new staff;
   •   Granted Divisions and Offices FTE ceilings that allow them to identify priority hires and
       make selections according to their greatest needs;
   •   Considered recruitment alternatives, such as combining vacancy announcements and
       making multiple selections if applicants are of high quality;
   •   Built on past cooperative efforts to target underrepresented groups, to continue and
       enhance diversity recruiting for its workforce; and,
   •   Developed a process to ensure it identifies detailed job requirements as quickly as
       possible as it implements financial reform legislation to guide the content and tactics of
       the recruiting actions.

CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading Markets.
Anticipated legislation regulating carbon emission trading and assigning regulatory duties to the
Commission did not materialize. On June 26, 2009, the House passed the American Clean
Energy and Security Act—H.R. 2454—that set forth new legislation to regulate carbon emission
trading; however, the Senate did not act on this proposed legislation. The Dodd-Frank Act
requires the Commission to lead an interagency working group tasked with organization and
completion of a study of regulatory oversight of potential carbon markets, with a report due to
Congress in January 2011. Staff convened the interagency group and began work on the study.
This forthcoming study may also address issues identified by the Government Accountability
Office (GAO) in their report issued on August 19, 2010 regarding Carbon Trading: Current
Situation and Oversight Considerations for Policymakers, GAO-10-851R.




                                                3
Most Serious Management Challenges

Two issues that are likely to challenge the CFTC in the coming year are:

Implementation of the Dodd-Frank Act

On July 21, 2010, President Obama signed the Dodd-Frank Wall Street Reform and Consumer
Protection Act (“Dodd-Frank Act”), Pub. L. 111-203, 124 Stat. 1376 (2010). Title VII of the
Dodd-Frank Act amended the Commodity Exchange Act (CEA) to establish a comprehensive
new regulatory framework for swaps and security-based swaps. In order to enact the Dodd-
Frank Act, the Commission has identified 30 areas where rules will be necessary. Many of these
rules will require or result in cooperative efforts with the Securities and Exchange Commission
or other federal agencies. In addition, the Dodd-Frank Act calls for numerous studies and other
undertakings by the Commission, some also with cooperation from other agencies. The
Commission recognizes that many of the new rules required under Dodd-Frank must be adopted
within 180 days. The magnitude of this undertaking under a compressed timeline during FY
2011 presents a serious management challenge.

Human Resource Expansion and Management

The Commission’s new responsibilities under Dodd-Frank significantly increased its workload.
By the end of fiscal year 2010, the Commission had on-board 687 employees, which is 58 below
the 745 FTE CFTC requested to carry out our pre-Dodd-Frank authorities. To fully implement
the Dodd-Frank reforms, the Commission states it requires an additional 398 FTEs. Rather than
398, the President’s FY 2011 Budget provided for hiring only 238 additional positions. CFTC is
requesting an additional 160 FTEs for FY 2012 to staff areas of critical need. However, the
current budgetary limits imposed by the government-wide continuing resolution will
significantly impact the CFTC’s ability to hire any additional employees during FY2011. Should
Congress lift the continuing resolution, the CFTC will need to dramatically expand its Human
Resource function to meet and manage the CFTC’s need for additional staff and training to
address the requirements of Dodd-Frank Act. We view the possibility of a rapid and dramatic
increase (35% staff increase in FY11) in new employees to address new rules over newly
regulated markets, such as swaps, a significant management challenge during Fiscal Year 2011.




                                               4
